CERTIFICATE OF COMPLIANCE WITH WORD
COUNT
CERTIFICATE OF COMPLIANCE
No. 21
ASHWIN KHOBRAGADE,
Petitioner.
v.
COVIDIEN LP,
Respondent.
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 5325 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d) and in compliance with 28 U. S. C. ยง 1746. I
declare under penalty of perjury that the foregoing is
true and correct.
Executed on

May 07, 2021

Page 1 of 1

